No. 19-

 

 

In THE
Supreme Court of the United States

NEIL FEINBERG, ANDREA FEINBERG,
KELLIE MCDONALD,

Petitioner,
v.

COMMISSIONER OF INTERNAL REVENUE,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,118 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 25, 2019.

wu

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
